'J

.COCKLE

2311 Douglas Street
Omaha. Nebraska 68102-1214

Legal Briefs
Esr. 1923

1-800-225-6964
(402)342-2831 •
Fax: (402) 342-4850

E-Mail Address:
con tact@cockl el ega 1 bri efs com
Web Site
tyww. cock 1 el egal briefs. com

No.
DAVID JAMES MURPHY,
Petitioner,
v.

CITIGROUP GLOBAL MARKETS, INC.,
CITICORP SECURITIES SERVICES, INC.,
AND OKAN PEKIN,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1 (b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7948 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of May, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Nebraska
JffiT
RENEE J. GOSS
MyComm. Exp. September 5, £023
Notary Public

Affiant

40981

